No. OY L624

 

IN THE SUPREME COURT OF THE UNITED STATES

JEREMY RANDOLPH MARTIN
Petitioner

UNITED STATES OF AMERICA
Respondent

 

ON PETITION FOR WRIT Of CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE 4TH CIRCUIT

PETITION FOR REHEARING

JEREMY RANDOLPH MARTIN
Petitioner pro se

FCI Fairton
P.O. Box 420
Fairton, NJ 08320

PETITION FOR REHEARING
(Sup. Ct. R. 44.2)

Appellant presents his petition for a rehearing of the above-

entitled cause, and, in support of it, respectfully shows:
GROUNDS: FOR_REHEARING

A rehearing of the decision in the matter is in the interests

of justice because:

   

1) On April 26, 2021, this court denied the petition for VED
TeGURPE Shay

OFFICE OF
SUPREME COUGH

 
    

2. This decision violates the First Amendment rights to

of the petitioner and others similarly situated ERK
& US.

  

ge
3. Inaa couple of earlier controlling decisions: of this court,

Packingham V. North Carolina"198 L.Ed 2d 273, 275 (2017) (quoting
Ashcroft V. Free Speech Coalition 152 L.Ed 2d 403, 409 (2002),

this court ruled that "the government may not suppress lawful
speech as the means to suppress unlawful speech." (emphasis added)
This is exactly what the challenged conditions of supervised
release do. These precedents (especially Ashcroft 152 L.Ed 2d @409)
are controlling issues and therefore must be applied to petitioner's
case.
4. A rehearing tightly and squarely focused on the decisions in
these cases, as well as the decision of the third circuit COA
United States V. Holena 906 F.3d 288 (2018, 3rd Cir.) is a matter
of fundemental fairness to the petitionervand others similarly
situated, and would not unduly burden the court.

CONCLUSION
For the reasons just stated, Jeremy Randolph Martin urges that this
petition for a rehearing be granted, and that, on further consick
consideration, the Petition for Certiorari be granted.

Respectfully Submitted this the 19th day of May, 2021.

 

FCI Fairton
P.O. Box 420
Fairton, NJ 08320
